HHS/OIG, Audit - "Audit of Costs Claimed for the Statewide Automated
Child Welfare Information System in California, Sacramento County, January 1,
1999, Through June 30, 2003," (A-09-05-00060)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Costs Claimed for the Statewide
Automated Child Welfare Information System in California, Sacramento County,
January 1, 1999, Through June 30, 2003," (A-09-05-00060)
March 14, 2007
Complete Text of Report is available in PDF format (1.22 mb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Child Welfare Services Case Management System (CWS/CMS)-related operating costs that Sacramento County (Sacramento) claimed for Title IV-E reimbursement were allowable under Federal and State regulations.
During the period January 1, 1999, through June 30, 2003, Sacramento claimed $11,181,417 as CWS/CMS-related operating costs for reimbursement under Title IV-E. We found that $3,984,138 was not allowable under Federal and State regulations, and we could not determine the allowability of the remaining $7,197,279.
We recommended that California: (1) refund the $1,992,069 Federal share of the $3,984,138 of unallowable costs claimed, (2) work with the Administration for Children and Families to determine what portion of the $7,197,279 ($3,598,640 Federal share) is allowable for reimbursement under Title IV-E and refund the Federal share of any unallowable costs identified, (3) review costs that Sacramento claimed for reimbursement under Title IV-E subsequent to the audit period for issues similar to those identified and refund the Federal share of any unallowable costs identified, and (4) instruct Sacramento to strengthen its internal controls.
California partly agreed and partly disagreed with our first two recommendations and did not directly comment on our final two recommendations.